<html>
<title> - FUSION: THE WORLD'S MOST COMPLEX ENERGY PROJECT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





                        FUSION: THE WORLD'S MOST
                         COMPLEX ENERGY PROJECT

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 11, 2014

                               __________

                           Serial No. 113-85

                               __________

 Printed for the use of the Committee on Science, Space, and Technology

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://science.house.gov
       
       
                                     ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

89-414 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001

    
       
       
       
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
THOMAS MASSIE, Kentucky              ROBIN KELLY, Illinois
KEVIN CRAMER, North Dakota           KATHERINE CLARK, Massachusetts
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS COLLINS, New York
BILL JOHNSON, Ohio
                                 ------                                

                         Subcommittee on Energy

                  HON. CYNTHIA LUMMIS, Wyoming, Chair
RALPH M. HALL, Texas                 ERIC SWALWELL, California
FRANK D. LUCAS, Oklahoma             ALAN GRAYSON, Florida
RANDY NEUGEBAUER, Texas              JOSEPH KENNEDY III, Massachusetts
MICHAEL T. McCAUL, Texas             MARC VEASEY, Texas
RANDY HULTGREN, Illinois             ZOE LOFGREN, California
THOMAS MASSIE, Kentucky              DANIEL LIPINSKI, Illinois
KEVIN CRAMER, North Dakota           KATHERINE CLARK, Massachusetts
RANDY WEBER, Texas                   EDDIE BERNICE JOHNSON, Texas
LAMAR S. SMITH, Texas



















                            C O N T E N T S

                             July 11, 2014

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Cynthia Lummis, Chairman, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     6
    Written Statement............................................     6

Statement by Representative Eric Swalwell, Minority Ranking 
  Member, Subcommittee on Energy, Committee on Science, Space, 
  and Technology, U.S. House of Representatives..................     6
    Written Statement............................................     8

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................     9
    Written Statement............................................    10

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    10
    Written Statement............................................    11

                               Witnesses:

Dr. Frank Rusco, Director, Natural Resources and Environment, GAO
    Oral Statement...............................................    12
    Written Statement............................................    15

Dr. Patricia Dehmer, Deputy Director for Science Programs, DOE
    Oral Statement...............................................    26
    Written Statement............................................    28

Dr. Robert Iotti, ITER Council Chair
    Oral Statement...............................................    35
    Written Statement............................................    37

Dr. Ned Sauthoff, Director, U.S. ITER Project, Oak Ridge National 
  Laboratory
    Oral Statement...............................................    44
    Written Statement............................................    47

Discussion.......................................................    60

             Appendix I: Answers to Post-Hearing Questions

Dr. Pat Dehmer, Deputy Director for Science Programs, DOE........    76

            Appendix II: Additional Material for the Record

Letter submitted for the record by Representative Lamar S. Smith, 
  Chairman, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................    78

 
                        FUSION: THE WORLD'S MOST
                         COMPLEX ENERGY PROJECT

                              ----------                              


                         FRIDAY, JUNE 11, 2014

                  House of Representatives,
                            Subcommittee on Energy,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 9:03 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Cynthia 
Lummis [Chairwoman of the Subcommittee] presiding.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Lummis. Good morning. The Subcommittee on Energy 
will come to order. Welcome to today's hearing, entitled 
``Fusion: The World's Most Complex Energy Project,'' which a 
week ago I didn't even know existed, and now I feel pretty well 
informed about this. In front of you are packets containing the 
written testimony, biographies, and truth in testimony 
disclosures for today's witnesses. And I now recognize myself 
for an opening statement. In order to ensure that everybody 
gets to ask questions, I am going to keep my statement brief, 
because we anticipate that we are going to have votes in about 
70 minutes.
    I want to welcome everyone to today's hearing on the 
Department of Energy, Fusion Energy Sciences program, 
specifically focused on the United States participation in the 
International Thermonuclear Experimental Reactor, also known as 
ITER. Today the Energy Subcommittee will discuss the projected 
costs and schedule associated with ITER, as well as the massive 
potential that fusion energy represents.
    This project is one of the most complex scientific and 
engineering undertakings in history. As we will hear today, 
ITER has, and continues to face, management challenges, lacks a 
credible schedule, and the United States program needs a 
reliable budget. This Committee has an oversight responsibility 
to ensure that the United States efficiently accomplishes its 
obligations in accordance with the ITER agreement, and that the 
ITER organization continues to remain a solid investment.
    We have an excellent panel of witnesses to testify on the 
history, challenges, and proposed solutions associated with 
ITER. I want to thank our witnesses for participating in 
today's hearing, and look forward to their testimony.
    [The prepared statement of Mrs. Lummis follows:]

       Prepared Statement of Subcommittee Chairman Cynthia Lummis

    Good morning. In an effort to ensure that all Members are able to 
ask their questions I will keep my statement brief.
    I would like to welcome everyone to today's hearing on the 
Department of Energy's Fusion Energy Sciences program, specifically 
focusing on the United States' participation in the International 
Thermonuclear Experimental Reactor, also known as ``ITER.''
    Today, the Energy Subcommittee will discuss the projected costs and 
schedule associated with ITER as well as the massive potential that 
fusion energy represents. This project is one of the most complex 
scientific and engineering undertakings in history--and as we will hear 
today, ITER has and continues to face management challenges, lacks a 
credible schedule, and the United States' program needs a reliable 
budget.
    This Committee has an oversight responsibility to ensure that the 
United States efficiently accomplishes its obligations in accordance 
with the ITER agreement--and that the ITER organization continues to 
remain a solid investment.
    We have an excellent panel of witnesses to testify on the history, 
challenges, and proposed solutions associated with ITER. I want to 
thank the witnesses for participating in today's hearing and look 
forward to their testimony

    Chairwoman Lummis. I now recognize the Ranking Member, the 
gentleman from California, Mr. Swalwell, for an opening 
statement.
    Mr. Swalwell. Thank you, Chairman Lummis, for holding this 
hearing, and I also want to thank our excellent panel of 
witnesses for being here this morning.
    Fusion holds the promise of providing a practically 
limitless supply of clean energy to the world. We are actually 
already dependent upon it every day from that great energy 
source in the sky, the fusion reactor in the sky, better known 
as the sun. It is essential to the existence--for life here on 
Earth for all of us. And, of course, it is a bit trickier for 
people to replicate what the stars are able to do with sheer 
gravity.
    But from my conversations with some of the top fusion 
researchers across the world, not just at Lawrence Livermore 
National Laboratory, which is in my Congressional District, and 
their National Ignition Facility, which I happen to represent, 
I have learned that the support of fusion energy research is 
something that is critical at this day and age, and now is the 
right time to build and operate experiments that can finally 
demonstrate that a man-made fusion system can consistently 
produce far more energy than it takes to fuel it.
    For the magnetic fusion approach, the next step is clearly 
ITER. ITER is designed to produce at least 10 times the energy 
it consumes, and would be the first experiment of its kind that 
enables us to provide researchers the opportunity to explore 
and test the behavior of a system where the fusion process 
itself provides the primary heat source to sustain its high 
fusion reaction rate, also called a burning plasma. As 
discussed in a seminal report by the National Academies 
entitled, ``Burning Plasma, Bringing a Star to Earth'', as well 
as subsequent reports, this experiment is absolutely essential 
to proving that magnetically confined fusion can be a viable 
clean energy source.
    That said, I have several concerns, which I hope we can 
address in this hearing. By all accounts, the U.S. ITER Project 
Office, under the direction of Dr. Ned Sauthoff, who is here 
today, is very well managed, and doing everything it can to 
contain costs, and maintain an aggressive schedule. I am also 
concerned about the administration's proposed $225 million cap 
on annual funding for the U.S. contribution to ITER, which they 
have justified solely by saying that this allows sufficient 
funding for the remainder of the Office of Science's fusion 
program.
    This justification, however, falsely assumes that the 
administration couldn't simply request a higher budget for 
fusion in a particular year as it does for other programs when 
they have projects with significant cost profiles. The $225 
million cap was not based on a bottom up project estimate that 
minimizes the total cost for the U.S. ITER contribution, but, 
rather, a political calculation, and this level falls well 
below what is necessary to optimize the project schedule, and 
minimize the cost to taxpayers.
    Given the critical importance of ITER to determining the 
viability of fusion as a clean energy source, and the major 
contributions of U.S. researchers to advancing the science and 
engineering of the field up to this point, I maintain strong 
support for this project, along with other key components of 
the broader U.S. based fusion research program.
    However, this does not mean, of course, that we can provide 
an unconditional blank check. The U.S. must maintain vigorous 
oversight, and use every means available, with our 
international partners, to contain costs and schedule, all 
while keeping an unwavering focus on achieving the project's 
incredibly important goals for our world's energy future.
    Thank you, and I yield back the balance of my time.
    [The prepared statement of Mr. Swalwell follows:]

    Prepared Statement of Subcommittee Minority Ranking Member Eric 
                                Swalwell

    Thank you Chairman Lummis for holding this hearing, and I also want 
to thank this excellent panel of witnesses for their testimony and for 
being here today.
    Fusion holds the promise of providing a practically limitless 
supply of clean energy to the world. We're actually already dependent 
on it--the energy we get from that fusion reactor in the sky, better 
known as the sun, is essential to the existence of life on Earth, 
including us. Of course, it's a bit trickier for people to replicate 
what the stars are able to do with sheer gravity. But from my 
conversations with some of the top fusion researchers in the world--and 
not just at Lawrence Livermore's National Ignition Facility, which I 
happen to represent - I believe we're getting there. This is why I am 
such a strong supporter of fusion energy research, and I believe that 
now is the right time to build and operate experiments that can finally 
demonstrate that a man-made fusion system can consistently produce far 
more energy than it takes to fuel it.
    For the magnetic fusion approach, that next step is clearly ITER. 
ITER is designed to produce at least ten times the energy it consumes, 
and would be the first experiment of its kind that enables our 
researchers to explore and test the behavior of a system where the 
fusion process itself provides the primary heat source to sustain its 
high fusion reaction rate, also called a ``burning plasma.'' As 
discussed in a seminal report by the National Academies entitled 
Burning Plasma-Bringing a Star to Earth, as well as subsequent reports, 
this experiment is absolutely essential to proving that magnetically 
confined fusion can be a viable clean energy source.
    That said, I have several concerns which I hope we can address in 
this hearing. By all accounts, the U.S. ITER Project Office, under the 
direction of Dr. Ned Sauthoff who is here today, is very well managed 
and doing everything it can to contain costs and maintain an aggressive 
schedule. But the 2013 ITER Management Assessment to the project's 
governing ITER Council found serious issues with the international 
organization's management practices, including an overall ``lack of 
urgency'' to complete the project on time and on budget due to various 
cultural and accounting practices among a number of the project's 
partners. I'm told that the new ITER Council Chair, Dr. Robert Iotti, 
who is also here today, is taking this Assessment very seriously, and 
working to adopt its recommendations and address the issues that the 
review identified. I look forward to learning more about Dr. Iotti's 
progress toward these goals shortly. I am also concerned about the 
Administration's proposed $225 million cap on annual funding for the 
U.S. contribution to ITER, which they have justified solely by stating 
that this allows sufficient funding for the remainder of the Office of 
Science's fusion program. This justification, however, falsely assumes 
that the Administration couldn't simply request a higher budget for 
fusion in a particular year, as it does for other programs when they 
have projects with significant construction cost profiles. The $225 
million cap was not based on a bottom-up project estimate that 
minimizes the total cost for the U.S. ITER contribution, but rather a 
political calculation.
    This level falls well below what is necessary to optimize the 
project schedule and minimize the total cost to taxpayers. As I believe 
both Dr. Sauthoff and Dr. Dehmer would agree, such underfunding 
inevitably leads to larger total project costs because the highly 
skilled teams required for management and construction of our 
components are essentially ``standing armies'' that need significant 
annual resources even if budget reductions force the project schedule 
to be extended. Moreover, even though some other ITER partners are not 
currently meeting their deadlines, my understanding is that much of 
what the U.S. is responsible for is or can be decoupled from their 
activities. So we could have a far more aggressive, cost-effective 
schedule to fabricate our components and have them stored until they 
are ready to be integrated into the reactor complex. I look forward to 
discussing the potential for this path forward with the panel as well.
    Given the critical importance of ITER to determining the viability 
of fusion as a clean energy source, and the major contributions of U.S. 
researchers to advancing the science and engineering of the field to 
this point, I maintain strong support for this project along with the 
other key components of the broader U.S.-based fusion research program. 
However, this does not mean we can support an unconditional blank 
check. The U.S. must maintain vigorous oversight and use every means 
available with our international partners to contain cost and schedule, 
all while keeping an unwavering focus on achieving the project's 
incredibly important goals for our and the world's energy future.
    Thank you, and with that I yield back the balance of my time.

    Chairwoman Lummis. I thank Mr. Swalwell, and now recognize 
the Chairman of the full Committee, Mr. Smith.
    Chairman Smith. Thank you, Madam Chair. Let me say at the 
outset that I appreciate the concerns expressed by you and the 
Ranking Member, and I happen to agree with them as well.
    Madam Chair, the Energy Subcommittee will hear from a panel 
of experts with collectively over a century of experience in 
science and engineering. We look forward to their testimony, 
and the prospects of nuclear fusion as a future energy source.
    Fusion energy research attempts to achieve an invaluable 
reward for humankind, a sustainable, renewable, zero emissions 
energy source. It also represents one of the greatest 
scientific challenges in history. This scientific undertaking 
of creating the power source of a star on Earth will require 
persistence and commitment. The next step towards achieving 
this goal is the International Thermonuclear Experimental 
Reactor, called ITER. And, by the way, I hope someone will 
explain why we don't call it ITER, even though I know we 
commonly accept it as ITER.
    The Obama Administration has chosen to underfund ITER in 
its Fiscal Year 2015 request. Instead of adequately supporting 
ITER, which could eventually lead to global energy security, 
the administration's budget request cuts this project by $50 
million. The Administration instead prioritizes late stage, 
unreliable renewable energy, such as wind and solar. Fusion 
energy is in the early stages of research, but experts predict 
that it could someday provide a solution to the challenges of 
climate change. This is because fusion energy has the potential 
to power the world for millions of years, is reliable, and 
yields zero carbon emissions. Still, the Administration refuses 
to adequately support this science.
    Depriving the U.S. ITER program of the funds it needs to 
accomplish its goals is not good policy. To maintain our 
competitive advantage, we must continue to support fundamental 
basic research that encourages the creation and design of next 
generation technologies. Fusion energy is the sort of high 
risk, high reward research that will benefit future 
generations, if we are bold enough to pursue it.
    Thank you, Madam Chair, but before I yield back, I would 
like unanimous consent to put into the record a letter from the 
American Security Project, which highlights fusion energy's 
importance for innovation and global energy security.
    Chairwoman Lummis. Without objection, so ordered.
    [The information apperas in Appendix II]
    Chairman Smith. I thought I had yielded back, but I will be 
happy to do so.
    [The prepared statement of Chairman Smith follows:]

                 Prepared Statement of Full Committeee
                        Chairman Lamar S. Smith

    Today the Energy Subcommittee will hear from a panel of experts 
with collectively over a century of experience in science and 
engineering.
    We look forward to their testimony on the prospects of nuclear 
fusion as a future energy source. Fusion energy research attempts to 
achieve an invaluable reward for humankind--a sustainable, renewable, 
zero-emissions energy source. It also represents one the greatest 
scientific challenges in history.
    This scientific undertaking of creating the power source of a star 
on earth will require persistence and commitment. The next step towards 
achieving this goal is the International Thermonuclear Experimental 
Reactor (ITER).
    The Obama Administration has chosen to underfund ITER in its fiscal 
year 2015 request. Instead of adequately supporting ITER, which could 
eventually lead to global energy security, the Administration's budget 
request cuts this project by $50 million. The Administration instead 
prioritizes late stage, unreliable renewable energy, such as wind and 
solar.
    Fusion energy is in the early stages of research. But experts 
predict that it could someday provide a solution to the challenges of 
climate change. This is because fusion energy has the potential to 
power the world for millions of years, is reliable, and yields zero 
carbon emissions. Still, the Administration refuses to adequately 
support this science.
    Depriving the U.S. ITER program of the funds it needs to accomplish 
its goals is not good policy. To maintain our competitive advantage, we 
must continue to support fundamental basic research that encourages the 
creation and design of next generation technologies.
    Fusion energy is the sort of high-risk, high-reward research that 
will benefit future generations if we are bold enough to pursue it.

    Chairwoman Lummis. I may not be awake yet, Mr. Chairman. I 
now yield to the Ranking Member, Mrs. Johnson of Texas.
    Ms. Johnson. Thank you very much, Madam Chairperson Lummis 
for calling this hearing today, and I would also like to thank 
the witnesses for being here. Nuclear fusion has the potential 
to provide the world with a clean, safe, and practically 
inexhaustible source of energy. Producing reliable electric 
power from fusion would undoubtedly serve as one of the biggest 
and most important scientific achievements in the history of 
mankind. That is why I am so supportive of a strong research 
program that can help us overcome the remaining scientific and 
engineering challenges for this potential to become a reality.
    The ITER project is the next and largest step toward this 
goal. For more than 50 years scientists at our top 
universities, national labs, and in the private sector, as part 
of a truly global research community, have been conducting 
experiments and performing research that has brought the team 
to a point where they are confident it is now possible to 
actually build a full scale test reactor that produces far more 
energy than it uses.
    However, it is highly unlikely that a research project of 
this size can be achieved by one institution, lab, company, or, 
in this fiscal environment, even by a single country. This is 
why wthe ITER project has brought together the best scientists 
and engineers from the world's largest and most advanced 
nations to carry out this experiment.
    But managing the dynamics of multiple countries working 
together toward a common goal, especially one as complex as 
this, is rarely easy, and ITER has proved to be no exception. 
Recent reports have documented several issues with the 
International Organization's management, which must be 
addressed if this project is to succeed.
    I look forward to hearing from our witnesses about how 
these problems are being dealt with, and to further discussing 
ways we can ensure that ITER achieves incredibly important 
goals. I thank you, Ms. Chairman, and I yield back the balance 
of my time.
    [The prepared statement of Ms. Johnson follows:]

                 Prepared Statement of Full Committeee
                  Ranking Member Eddie Bernice Johnson

    Thank you Chairman Lummis for holding this hearing today, and I 
would also like to thank the witnesses for being here.
    Nuclear fusion has the potential to provide the world with a clean, 
safe, and practically inexhaustible source of energy. Producing 
reliable electric power from fusion would undoubtedly serve as one of 
the biggest and most important scientific achievements in the history 
of humankind. This is why I am so supportive of a strong research 
program that can help us overcome the remaining scientific and 
engineering challenges for this potential to become a reality.
    The ITER project is the next, and largest, step toward this goal. 
For more than fifty years, scientists at our top universities, national 
labs, and in the private sector--as part of a truly global research 
community--have been conducting experiments and performing research 
that has brought the teams to a point where they are confident it is 
now possible to actually build a fullscale test reactor that produces 
far more energy than it uses. However, it is highly unlikely that a 
research project of this size can be achieved by one institution, lab, 
company, or, in this fiscal environment, even by a single country. That 
is why the ITER project has brought together the best scientists and 
engineers from the world's largest and most advanced nations to carry 
out this experiment.
    But managing the dynamics of multiple countries working together 
toward a common goal, especially one as complex as this, is rarely 
easy, and ITER has proved to be no exception. Recent reports have 
documented several issues with the international organization's 
management which must be addressed if this project is to succeed. I 
look forward to hearing from our witnesses about how these problems are 
being dealt with, and to further discussing ways we can ensure that 
ITER achieves its incredibly important goals.
    Thank you, and with that I yield back the balance of my time.

    Chairwoman Lummis. I thank the Ranking Member. And if there 
are other Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    Thank you very much again, witnesses. And before I 
introduce you, I will tell you that I had a very lengthy 
conversation, very lengthy conversation last night with an old 
friend from high school by the name of Jeff Hoy. And who would 
have thought--yeah, I can see you all know him. I used to sneak 
into his back yard in high school for parties, and we were--and 
it has been decades, decades, since we have talked to each 
other, and we were laughing at each out about how serendipitous 
it is that we would now be talking about ITER in detail, when a 
week ago I would never even heard of ITER, and--anyway, it was 
very informative, and it was also delightful to sort of re-
acquaint with an old high school buddy.
    So, at this time, I would like to introduce our witnesses. 
If I mispronounce your name, would you please correct me? Our 
first witness today is Dr. Frank Rusco. Is it Rusco?
    Dr. Rusco. Yes.
    Chairwoman Lummis. What is--how do you pronounce it?
    Dr. Rusco. Half my friends call me Rusco, and--but I say 
Rusco.
    Chairwoman Lummis. Rusco, excellent. Well, I want to do 
what you do. Okay. Dr. Frank Rusco, thank you. Dr. Rusco is the 
Director of the Natural Resources and Environment Team at the 
Government Accountability Office. Dr. Rusco really leads a 
broad spectrum of energy issues government-wide. Dr. Rusco 
received both his Master's and Doctorate in Economics from the 
University of Washington. Thank you for being here.
    Now, Dr. Dehmer----
    Dr. Dehmer. Dehmer.
    Chairwoman Lummis. Dehmer, thank you. Our second witness is 
Dr. Patricia Dehmer, Deputy Director for Science Programs at 
the Department of Energy. Dr. Dehmer provides scientific and 
management oversight for a number of DOE science programs, 
including fusion energy sciences.
    Our third witness is Dr. Iotti. Did I get----
    Mr. Iotti. Iotti, Iotti, either way.
    Chairwoman Lummis. Okay. How do you pronounce it?
    Mr. Iotti. --Americans--Iotti----
    Chairwoman Lummis. Iotti? Okay. Well, I am going to 
Americanize it, and I--our third witness is Dr. Robert Iotti, 
Chair of the ITER Council. Dr. Iotti became involved in fusion 
nearly 40 years ago, working at the Princeton Plasma Physics 
lab. Dr. Iotti received his Ph.D. in Nuclear Engineering.
    And our final witness today is Dr. Ned Sauthoff. Did I get 
that right?
    Mr. Sauthoff. Perfect.
    Chairwoman Lummis. Thank you. Director of the U.S. ITER 
project at Oak Ridge National Laboratory. Previously Dr. 
Sauthoff was a physics researcher, and head of the Off-Site 
Research Department at the Princeton Plasma Physics Lab. Dr. 
Sauthoff received his Ph.D. in Astrophysical Sciences from 
Princeton.
    Welcome one and all. As you know, our spoken testimony is 
limited to five minutes, and Members then will have five 
minutes each to ask you questions. So, again, welcome, and 
thank you. I now recognize Dr. Rusco for five minutes to 
present his testimony.

            TESTIMONY OF DR. FRANK RUSCO, DIRECTOR,

             NATURAL RESOURCES AND ENVIRONMENT, GAO

    Dr. Rusco. Thank you. Chairman Lummis, Ranking Member 
Swalwell, Chairman Smith, and Ranking Member Johnson, Members 
of the Subcommittee, thank you for the opportunity to discuss 
our recent report on DOE's cost and schedule estimates for the 
U.S. ITER project. The ITER project is an important scientific 
endeavor, and one that has large potential implications for 
basic science, and for the future of energy production. As you 
know, the U.S. has committed to providing about nine percent of 
ITER's construction costs through contributions of hardware, 
personnel, and cash. In addition, the U.S. has agreed to 
contribute to ITER's operational and decommissioning costs.
    However, since the ITER agreement was signed in 2006, the 
project has experienced significant cost increases and schedule 
delays. GAO has reviewed the U.S. ITER project twice, in 2007 
and 2014. Both reports identified similar concerns about the 
reliability of cost and schedule estimates for ITER. 
Specifically, in 2007, we reported on the importance of DOE 
assessing the full costs of U.S. participation in ITER, and 
setting a definitive cost estimate for the project.
    We reported that the U.S. had committed to contributing to 
ITER without definitive estimates, or a complete project 
design, and that the preliminary estimate of about $1.1 billion 
could change significantly as a result. We also noted that the 
international ITER organization faced a number of management 
challenges that might significantly affect U.S. costs.
    In our most recent report, published in June 2014, we found 
that DOE's current estimate of about $4 billion for the U.S. 
ITER project basically did a good job of incorporating the 
important characteristics of reliable cost estimates. However, 
factors outside of DOE's control continue to prevent it from 
setting a reliable cost baseline more than seven years after 
the project began. Most importantly, the overall international 
project schedule that DOE uses as the basis for the U.S. 
schedule is not reliable. This is in part because of long 
running management deficiencies within the international ITER 
organization that continue today.
    For example, an external assessment of the ITER 
organization in 2013 found that significant management issues 
hindered international project performance. The ITER council 
has committed to addressing these issues, and, as part of that 
effort, the ITER organization is currently reassessing the 
international project schedule, and will report its results to 
the council in June 2015. The purpose of the reassessment is to 
create a realistic schedule for ITER that will provide all 
members, including the U.S., a credible overall project 
schedule to which they can link their individual efforts and 
cost estimates.
    Given the importance of a reliable project schedule for 
completion of the ITER project, this next year will be critical 
to ITER's long term success. In line with that, we recommended 
in our report that DOE continue to formally advocate for timely 
implementation of the necessary actions laid out in the 
management assessment that are needed to set a reliable 
international project schedule, and improve ITER organization 
project management.
    We urge DOE to be vigilant in its efforts to influence to 
the maximum extent possible the ITER organization's development 
of this schedule so that, at this time next year, the U.S. will 
be in a position to endorse the revised international schedule 
and use that to set a definitive cost baseline for the U.S. 
project.
    In conclusion, the ITER project is at a crossroads. In the 
absence of a reliable schedule and improved international 
project management, ITER will remain subject to a significant 
amount of uncertainty, and may continue to face significant 
cost overruns or schedule delays. DOE should do as much as it 
can over the next year to push the ITER organization toward a 
realistic schedule and improved project management. Only if 
this is achieved will DOE be able to provide a firm and 
reliable estimate to Congress of the expected U.S. contribution 
to the ITER project.
    Alternatively, if DOE cannot, upon evaluating the ITER 
organization's revised schedule, determine that this schedule 
is indeed reliable, it is imperative that DOE provide a 
transparent and complete accounting of the schedule's 
deficiencies to Congress, so that lawmakers can have the 
information to make reasoned budget and other decisions.
    Chairman Lummis, Ranking Member Swalwell, and Members of 
the Subcommittee, this concludes my prepared statement. I will 
be pleased to answer any questions you may have.
    [The prepared statement of Dr. Rusco follows:]
    
     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
  
    
    Chairwoman Lummis. Thank you, Dr. Rusco.
    I now recognize Dr. Dehmer to present her testimony.

               TESTIMONY OF DR. PATRICIA DEHMER,

           DEPUTY DIRECTOR FOR SCIENCE PROGRAMS, DOE

    Dr. Dehmer. Chairman Lummis, Ranking Member Swalwell, 
Chairman Smith, Members of the Committee, I am pleased to come 
before you today to discuss the Department's Fusion Energy 
Sciences program, which supports work to understand matter at 
very high temperatures and densities, and to build the 
scientific foundation needed to develop a fusion energy source. 
The ITER project is the only planned burning plasma experiment 
in the world, and it is an important component of the Fusion 
Energy Sciences program. Indeed, our program is configured to 
support ITER activities, both now and in the future.
    The idea to build a burning plasma device through an 
international agreement originated from a Geneva superpower 
summit in November 1985, at which time Premier Gorbachev 
proposed to President Reagan that an international project be 
established to develop fusion energy for peaceful purposes. 
Many years, and may project changes later, including a 
congressionally directed withdrawal when project costs were 
escalating, the U.S. re-entered ITER in 2007.
    At that time, the expected U.S. cost for ITER was $1.1 
billion, which was a tractable amount in an era of projected 
strong budget growth. Indeed, in 2007, President Bush signed 
the America Competes Act, which authorized a doubling of 
funding for the Office of Science, and other Federal basic 
science programs over a period of a decade.
    However, since that time, as you well know, the estimated 
cost of U.S. ITER contributions has grown to more than $4 
billion. The growth arises from several factors, which are 
summarized in the GAO report. The project has also seen a 
multi-year schedule slip from the original projected completion 
date. In contrast to the increased estimate for the cost of 
U.S. obligations to ITER, funding for the Office of Science has 
grown more slowly.
    This makes annual budgeting a challenge. It is made 
significantly more challenging each year, owing to stunning new 
scientific discoveries and new technologies that have created 
imperatives in every program of the Office of Science. For 
example, we are in worldwide competitions for the most capable 
scientific computers, and for revolutionary X-ray light--laser 
light sources that probe matter at the atomic level. Neither 
was envisioned a decade ago. Increased urgency has been placed 
on research to develop new materials, new chemistries, and new 
biological processes for clean and efficient energy.
    In addition to cost growth and schedule slip, other issues 
have emerged that affect ITER. In late 2013 to third biennial 
management assessment of the ITER organization identified 
significant management issues that threatened the success of 
the project. Eleven recommendations resulted. The U.S. agreed 
with all of the recommendations put forward. Key among them is 
that leadership, management, and culture within the ITER 
project must be improved if it is to succeed.
    The U.S. has spent significant time and energy to help ITER 
succeed. We have sent our best personnel in the United States 
to work at the ITER organization. We have recommended that Dr. 
Bob Iotti be the council chair, and he accepted, and we are 
very pleased. And we have insisted that all of the management 
assessment recommendations be adopted and implemented. The 
administration maintains its commitment to our responsibilities 
under the joint implementing agreement for ITER, but we insist 
on the reforms articulated in the management assessment report.
    I would like to close by remarking on the GAO report. As 
always, we thank the GAO for its findings and its 
recommendations. This was a particularly difficult report, and 
the GAO did an excellent job. The Department of Energy agrees 
with the four recommendations for executive action. We have 
already implemented those recommendations that we can address 
more, and we plan to take action on the recommendations that 
first require the international organization to baseline the 
project.
    Finally, I want to thank this Committee for holding the 
hearing on ITER, and providing the Department with the 
opportunity to testify. We look forward to continuing to work 
with you on the complex domestic and international challenges 
that we face in fusion research. Thank you.
    [The prepared statement of Dr. Dehmer follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Lummis. Thank you, Dr. Dehmer.
    And now I recognize Dr. Iotti to present his testimony.

                 TESTIMONY OF DR. ROBERT IOTTI,

                       ITER COUNCIL CHAIR

    Mr. Iotti. Thank you, Madam Chairman, Ranking Member 
Swalwell, Chairman Smith, Members of the Subcommittee. I thank 
you very much for the opportunity of appearing before you. I am 
presently the chair of the council, but I want to make sure 
that you understand I don't represent the view of the council, 
but my own as a person who has been involved for over 45 years 
in defense and nuclear--commercial nuclear facilities, as well 
as fusion facilities.
    I could not be as eloquent as the members themselves on the 
promise of fusion, or why ITER is so important, so let me just 
get to the status of ITER. This is a nuclear facility which is 
licensed in France. It is being constructed in Cadarache, and 
work is progressing on site. At 6:00 a.m. yesterday morning the 
project began pouring the major slab on which the tokamak 
itself will sit, and the design, the fabrication, and the 
construction of the various component structures, buildings, 
and systems that comprise ITER are progressing, both on site, 
as well as in the domestic agencies, of the various parties 
that contribute to ITER. I brought a booklet to the Committee 
that I ask the Committee to be part of this record because, 
pictorially, it will show progress, and it will take me 
thousands of words to explain what pictures will tell you.
    Unquestionably, ITER has had management problems. The 
schedule is uncertain, as is its final cost. What is known is 
that the schedule is going to be longer, and the cost higher 
than had originally been anticipated. And, as mentioned, the 
project is preparing an updated schedule, which should be ready 
by the middle of 2015. The reasons for the cost and schedule 
overruns are varied, but unique to ITER is the ITER 
international agreement itself, which causes some of these 
problems.
    The Director General of the ITER organization is 
responsible for the overall design, the licensing, the 
construction, the commissioning, and the operation, but the 
various buildings, components, systems are provided by--as 
contribution in kind by the domestic agencies, and the domestic 
agencies have all of the funds. The operations are funded from 
those funds, and the funds are subject to budgets that are 
allocated to ITER by the various parties. So the Director 
General and the ITER organization have really no direct control 
on the funds, or on the domestic agencies, so that when there 
is any misalignment between the ITER organization and domestic 
agencies on any particular topic, decisions would typically 
require unanimity, or at the very least consensus cannot be 
readily made, leading to delays and cost increases.
    Now, funding shortfalls can contribute to those schedule 
delays and consequent cost increases. Given the delays and 
increases experienced to date, many parties have budget 
problems, and the U.S. is not alone. However, the U.S. strategy 
to minimize yearly funding until the schedule is known with 
high degree of confidence, and ITER performance is improved, 
will increase the ITER cost for the U.S., and could delay the 
ITER schedule. You know, when the new schedule becomes known, 
whether the U.S. will be a critical--or not is uncertain at 
this point. But if they are, lest they cause international 
delays, they may have to adjust the budget afterwards. The same 
failure of any member can affect any of the members.
    Now, with regard to the management assessor, the council 
has immediately improved its effectiveness and efficiencies. We 
used to take up days without concluding anything, and take up a 
large fraction on trivial matters. Now they are disposed 
instantly by approving a consent package that contains all the 
non-controversial, and then the council concentrates on the big 
issues. The IO has prepared a detailed action plan, and the 
detailed action plan has been acted upon on all actions, so we 
are responding to every recommendation of the management 
assessors.
    Now, some actions pay immediate dividend. We see now we are 
meeting milestones on the schedules that before we used to meet 
only 50 percent of the time. That is a good sign. On the other 
hand, changing culture takes time, so all of the action related 
to culture will be work in progress for a bit of time.
    Perhaps the most important action taken is on the action of 
changing the management of ITER. A formation of a search 
committee has already occurred. This committee meets Tuesday in 
Paris to elect their own chair, and then start evaluating the 
recommendation of--members, potential candidates for Director 
General, and other important positions on the project.
    So I would like to leave the Committee that, in summary, we 
are not just making progress in constructions. We are also 
making progress in fixing the management project. Will ITER be 
successful? Well, you know, it is an experimental reactor, but 
it is based on the knowledge acquired throughout the world, and 
all of the fusion devices, so the likelihood of not meeting 
performance is low. There are no showstoppers, and the 
technological challenges can be met and overcome. So let me 
stop right now, and ask the Members--again, thanking them. If 
there are any question, I will be happy to answer them.
    [The prepared statement of Dr. Iotti follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Lummis. Thank you, Dr. Iotti. It is an amazing 
scientific experiment, but it is also an amazing experiment in 
international management of a very complex project. We 
recognize the challenges that you face.
    I now recognize Dr. Sauthoff to present his testimony.

                 TESTIMONY OF DR. NED SAUTHOFF,

                  DIRECTOR, U.S. ITER PROJECT,

                 OAK RIDGE NATIONAL LABORATORY

    Mr. Sauthoff. Well, thank you very much, Chairman Lummis, 
Ranking Member Swalwell, Chairman Smith, other Members of the 
Committee, and other distinguished Members of Congress. As 
Chairman Lummis said, my name is Ned Sauthoff, and my role is 
the director of the U.S. ITER Project Office, which has been 
charged by DOE with executing the U.S. part of the ITER 
project. And--so I am the ``evil'' domestic agency, as Bob 
would call it.
    In any case, I would like to deviate from my prepared text 
by responding to Mr. Smith's question about ITER/ITER, okay? 
Turns out that ITER is called ITER because it is a Latin Third 
Declension noun meaning the journey or the way, and it is the 
origin of the word itinerary.
    Chairman Smith. Correct.
    Mr. Sauthoff. Okay? So I could see why it could be ITER, if 
it is in Latin, or ITER, if it is itinerary. So you were right.
    Chairman Smith. If the gentleman would yield, and I don't 
want to eat up into your 5 minutes, but having taken more years 
of Latin than I want to confess, we always pronounced it ITER. 
As you say, it means the way, the road, the journey. It is 
where we get the word itinerary. So it seems counter-intuitive 
to pronounce a word with a long E that starts with an I. And I 
know that is more than we want to hear today, so----
    Mr. Weber. ITER way, you are both correct.
    Mr. Sauthoff. Okay. Well, building on Mr. Smith's comment, 
I would like to characterize ITER by a sentence from Virgil's 
Aeneid, ``Forsan et haec olim meminisse juvabit.'' Perhaps 
someday it will be a pleasure to remember even this.
    Chairman Smith. Very good.
    Mr. Sauthoff. Okay. So let me move on from that. If I could 
have the first slide brought up? Okay. What we will see is the 
ITER site. And as Dr. Iotti described, there are buildings 
popping up out of the ground. In the foreground you see a 
headquarters building. In the middle you see where the tokamak 
will be built. In the background you see a building built by 
the Indians for building the cryostat, which is too big to 
ship. And behind--and beside that you see a poloidal field coil 
building, where the Europeans will build magnets that are also 
too big to ship, okay?
    And then if we focus in on the tokamak building, this is 
the basement for the tokamak, on which the tokamak will sit. 
And, as Dr. Iotti said, yesterday they started pouring the 
concrete of a 1-1/2 meter thick slab on which the tokamak will 
be built. That slab is actually not on the ground. It is on 493 
seismic isolator pillars because you have to avoid earthquakes, 
okay? So it is a rather complex building within a building, and 
so what we are in the process of doing now is pouring the 
basement floor of the inner building, okay? And that is what 
you see there.
    If we look at what is going on around the world, you would 
see that there are many pieces of hardware being built around 
the world. And now let me focus on the U.S. hardware, because I 
know you are interested in the U.S. part particularly. These 
are pieces of hardware, which we are fabricating, and have 
either delivered, or are delivering this year.
    If you look in the upper left, that is an 800 meter long 
spool of conductor. It is four meters wide, four meters tall, 
you know, a meter is, like, a yard, so it is really big. This 
is our prototype winding, where we validated all of our 
fabrication processes. That conductor has been shipped to 
Italy, to ASG in La Spezia, Italy, where the Europeans will 
turn it into a coil, a trial coil. We have also shipped 100 
meter superconducting coil, a spool, which was built out of 
conductors that came from Oxford Superconductor in Carteret, 
New Jersey, and Luvata, in Waterbury, Connecticut. And it was 
then cabled in New Hampshire, and then it was integrated and 
jacketed in Tallahassee, at a small business called High 
Performance Magnetics.
    So we actually have put money into 40 different states. And 
so what we are trying to do is to build up the technological 
capability. And let me just elaborate on that. Oxford 
Superconductor and Luvata have gotten contracts from other ITER 
parties because our investment in those companies has made them 
the world leader. There was more than $50 million went to one 
of them to provide superconductor to Europe, okay? So here it 
is, a case where our investment in ITER enabled U.S. industry 
to be world class competitive, and win contracts from another 
member.
    Below, you see some components which we are providing to 
provide site power. And to the right you see one of five drain 
tanks of about 60,000 gallons, which have to be put into the 
basement before they pour the next floor up. That is why our 
schedule is not totally within our control. We have to fit into 
the schedule of the building.
    And then the last slide here are components that we are 
putting into a new building at General Atomics in Poway, 
California for us to fabricate the world's highest stored 
energy superconducting pulsed magnet in the world, okay? So 
this is a case where the U.S. is going to have a capability 
which no one else has, and we will have built a magnet that has 
more energy in it in a pulsed way than anyone else. So at the 
left is a heat treatment furnace, where we can cook it for 100 
hours at 650 degrees Centigrade to turn Niobium and Tin into 
Niobium-3 Tin. And at the right, you see the first of 11 
stations for doing the winding.
    So--I am done with the slides now, so you can return to the 
camera. So, as others have said, what we are building on here 
is an attempt to create a burning plasma. This is a plasma 
which emulates the sun, and the key part is that the fusion 
reactions themselves keep it hot. And so, within the U.S., we 
have done the systems engineering such that we know what we 
have to build. We know the system performance requirements for 
all the components for first plasma. We know the interfaces so 
that we can reliably proceed to fabricate those components with 
acceptable risk. Those that are needed post-first plasma need 
more design work, so we are not ready to run with those.
    But let me just report to you that our team is ready to 
run. The funding that we are now getting allows us to walk. We 
would prefer to run. It would be cheaper for us to run, and I 
am sure some of the questions will relate to that. And I also 
wanted to comment that ITER alone does not constitute a U.S. 
fusion program. What we have to do is to support ITER design, 
and position the U.S. for leadership in ITER research. And that 
means we have to be studying the topics that ITER will be 
studying on our domestic facilities in such a way that the U.S. 
has world leadership capability so that we are part of the 
teams that do experiments on ITER. And lastly, let me say that 
we also have to move on, before we have a fusion reactor, to 
study materials, components, and the like, and that is part of 
the strategic planning exercise which is now being conducted.
    So I conclude by saying our fusion community is confident, 
we are excited about the opportunities before us, and we look 
forward to working with you and the Department of Energy in 
developing, and planning, and implementing a vibrant U.S. 
fusion program.
    [The prepared statement of Dr. Sauthoff follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Lummis. Thank you again, all of you, for being 
available for questioning today. We will now begin member 
questions, reminding Members that Committee rules limit 
questions to five minutes. And the Chair will, at this point, 
begin. And in order to get us all an opportunity to ask some 
questions before anticipated 10:15 votes, I would ask all the 
Members to err on the side of brevity.
    First of all, Dr. Rusco, thank you again for being here. 
Recognizing the complexity of this project, the reliance of 11 
nations on each other to do their part to keep this thing on 
schedule, and, to the extent we can, as close to a reasonable 
budget as could possibly be attained, given the difficulties of 
managing all these languages, all these countries, all this 
science, it is almost mind boggling.
    Your report provides a historic account of the U.S. ITER 
project's increasing costs and schedule. What can our 
government do to establish a reliable budget and schedule, so 
DOE and U.S. ITER have a clear plan to fulfill the U.S. 
hardware obligations, and lower overall costs?
    Dr. Rusco. Very briefly, the U.S. project is dependent on 
the success of the management improvements of the international 
organization. That--those must occur, and there must be a 
reliable and definitive schedule put out before they can use 
the tools, which they are using very well, of cost estimation 
to give a reliable cost estimate to Congress. So it is really--
it is--the first step is the international organization has to 
improve its management practices in very important ways, and 
then it has to come up with a full schedule in consultation 
with all the members. And then the U.S., I think, has the tools 
to make a reliable cost estimate for our own share of that.
    Chairwoman Lummis. Hence I will skip now to Dr. Iotti, and 
ask, is that an attainable goal within a reasonable timeframe, 
to have just the international scope of work, budget, and 
timeline?
    Mr. Iotti. The brief answer is yes. Sorry. The brief answer 
is yes, and I could elaborate, but I will be even more 
confident come this September, where I am going there to review 
the progress on coming up with the schedule, the resource--and 
where the project will be in the middle of 2015.
    Chairwoman Lummis. Who will be responsible between now and 
September in preparing the schedule that you will be reviewing?
    Mr. Iotti. There is the--a group within the ITER 
organization that is preparing the schedule as we speak. And 
they already have prepared the front end of that schedule, 
which is the 2014 annual work plan, and that is the one that I 
was referring to. In the past, when we made this annual work 
plan, the project would miss about half the milestones. Now 
they are meeting them all. In fact, sometimes they are beating 
them. And those that are in jeopardy, they are acted upon right 
away to mitigate possible delays, or retreatment entirely. So 
there is a whole new spirit of can-do attitude that did not--
was not present in the past.
    Chairwoman Lummis. Okay. So there is scope of work, there 
is timeline----
    Mr. Iotti. Correct. They are all----
    Chairwoman Lummis. --and there is----
    Mr. Iotti. --together.
    Chairwoman Lummis. --budget. Okay.
    Mr. Iotti. Correct.
    Chairwoman Lummis. All three of those elements are being 
handled by the same----
    Mr. Iotti. With the cooperation of the domestic agencies. 
It is not, you know, that has to be a complete cooperation 
between the ITER organization that prepares the overall 
schedule and the domestic agencies, because each of the 
domestic agencies prepare its own schedule for their own scope, 
when then has to be integrated overall. And then the whole 
thing has to make sense----
    Chairwoman Lummis. Um-hum.
    Mr. Iotti. --which is one of the reasons I am going there 
also in September, to make sure that everything is right. And 
when that has happened, then you can have a high confidence 
both in the ITER organization, as well as the domestic 
agencies. That is what Mr. Rusco is referring to. Until we have 
that, it is very difficult for the U.S. to prepare anything, 
okay?
    Chairwoman Lummis. Who is preparing the budget for each 
country's scope of work within the timeframe?
    Mr. Iotti. That you would have to address--for instance, 
for the U.S., you would have address Dr. Sauthoff. The domestic 
agencies prepare the basic information, which then goes to the 
government to request certain budget to enable them to do the 
work. That is within the domestic agencies. It is not within 
the purview of the overall ITER organization. They just have to 
integrate all of those and alert members when they see a 
problem.
    Chairwoman Lummis. Okay. Dr. Sauthoff, given that, can you 
give me the 25 second version of your answer?
    Mr. Sauthoff. Yes. My answer is that we have a very good 
process for developing schedule and cost estimate. As Dr. Rusco 
said, GAO reviewed us, and they said that we have all the 
characteristics of a reliable schedule system, and we have most 
of the characteristics of a reliable cost system. The only 
things they cited as missing had to do with an independent cost 
estimate, and a more extensive sensitivity analysis, which is 
something we do before baselining. So we have a good system, 
and I am proud of our cost estimate of 3.9 billion.
    Chairwoman Lummis. Thank you, panel. I now recognize Mr. 
Swalwell for 5 minutes.
    Mr. Swalwell. Thank you, Chairman Lummis, and I was also 
delighted to hear from Chairman Smith that--his remarks about 
how ITER, and investments in fusion research can get us to an 
energy source that is carbon neutral. And that, you know, 
Chairman Smith, could really change the debate in this town, 
and make moot a lot of the back and forth about fossil fuels 
versus other sources of energy. I mean, I am a big believer in 
the renewables, but an investment in something like this, I 
think, could render many of these debates moot, and I think we 
would both embrace that, if we could get to that point.
    And--so my question first, for Dr. Sauthoff, is--I have 
been told that a significant portion of the U.S. contribution 
to ITER can be decoupled from the international schedule almost 
entirely, and that we have the opportunity to reduce the total 
cost to our taxpayers if we simply focus more attention and 
resources on those components in the near term. So I guess, 
first, is this true?
    Mr. Sauthoff. Yes, it is true. Roughly 2/3 of our scope is 
aimed at coming up with the first configuration of the machine, 
which is the core tokamak, and that is what is sometimes called 
the first plasma configuration. It is what you need to 
demonstrate that the tokamak itself works. It is roughly 2/3 of 
our scope. We know what we have to build well enough that we 
can proceed to fabricate at acceptable risk. And if we were to 
proceed on an optimal profile, we think we could probably 
reduce that cost from 3.9 billion to about 3.4, saving about 
half a billion dollars.
    Mr. Swalwell. And also, Dr. Iotti, any thoughts on whether 
an accelerated contribution could work?
    Mr. Iotti. Well, clearly--will lower the cost. I think what 
Dr. Sauthoff said is absolutely right. The other thing that, 
though, he did not add is I happen to know that in his own 
estimate he has a large amount of contingency, something on the 
order of--I think it is close to 900 million.
    If you accelerate, you retire some of that contingency. My 
experience in large project is the sooner you finish, the less 
risk you incur of changes, and that also saves some of that 
money that would otherwise go to pay for that risk. So the 
overall saving, in my opinion, would be larger than the half a 
billion, and may be close to 3/4 of it.
    Mr. Swalwell. Thank you, Dr. Iotti. And, Dr. Dehmer, 
speaking of contributions, I did mention in my opening 
statement the $225 million U.S. cap. And was I correct in 
describing this as an arbitrary level that the administration 
decided what would be politically palatable, or is this 
something that was arrived at from a bottom up project estimate 
that minimizes the total cost for U.S. taxpayers, and our 
contribution to ITER?
    Dr. Dehmer. It was not a bottoms up, as you say, but it was 
also not arbitrary. Let me give you the context that we were 
living in when we made that decision. At the time, the 
Department, and as now, the Department leadership was very 
supportive of the joint implementing agreement for ITER. But we 
were having requests from the project upwards of $350 million a 
year. The project had no international baseline, it had no U.S. 
baseline, no cost and schedule profiles.
    There were rumors of very significant cost growth and 
schedule delay, and deliberately many of these rumors were not 
put in the open, or kept silent. We have heard about the 
management weaknesses, and we heard that very significant 
improvements were needed. And all of this came against a 
background of sequestration, and many other projects that we 
were trying to support at the time.
    Therefore, we made a decision that, with no cost and 
schedule baselines, with significant management weaknesses, we 
could not provide this project with everything that it was 
requesting. We had to make a balance across the opposite sides, 
and we chose $225 million. We believed that amount would allow 
us to go forward, and deliver what we needed to deliver, so as 
not to delay the project, but would allow us to do other things 
that we needed to do in the Office of Science.
    Mr. Swalwell. Thank you, Dr. Dehmer. And knowing what we 
know now, listening to the testimony of the witnesses, and that 
by and large much of sequestration has been rolled back, do you 
anticipate that the next recommendation for funding will 
increase beyond today?
    Dr. Dehmer. We are in negotiations on that now, and so I 
can't talk about that. What I definitely want to say is we are 
looking forward to the June 2015 baseline exercise from the 
international organization.
    Mr. Swalwell. Thank you, Dr. Dehmer. Thank you, Chair, and 
yield back the balance of my time.
    Chairwoman Lummis. The Chair now recognizes the full 
Committee Chairman, Mr. Smith of Texas.
    Chairman Smith. Thank you, Madam Chair. Let me direct my 
first question to Dr. Dehmer, Dr. Iotti--I am tempted to say 
Dr. Iotti, but I won't--Dr. Iotti, and Dr. Sauthoff. And, Dr. 
Rusco, I don't mean to slight you, but the question really is 
not for the GAO, and you will see why.
    And it is this. I think we have to acknowledge that the 
practical delivery of fusion energy is dollars away and years 
away, but nevertheless it has incredible potential, and that is 
the point of my question. If we are successful in developing 
future sources of fusion energy, wouldn't that largely solve 
the problem of carbon emissions? And this is something that the 
Ranking Member alluded to as well. So, Dr. Dehmer?
    Dr. Dehmer. It would help mitigate the problem of carbon 
emissions, and the if is a long way off, and----
    Chairman Smith. I acknowledge that.
    Dr. Dehmer. Yeah. Okay. And----
    Chairman Smith. I am talking about the potential.
    Dr. Dehmer. Yes, I think everyone agrees that the potential 
is very great.
    Chairman Smith. Okay. And, Dr. Iotti?
    Mr. Iotti. Well, I use an example that I borrow from Dr. 
Llewellyn Smith in Oxford. The potential of fusion, in terms of 
the issues that you are referring to can be translated in 40 
liters of water, and the lithium from one laptop battery----
    Chairman Smith. Oh boy.
    Mr. Iotti. --can provide the per capita consumption in the 
United States for 15 years, and do away with 70 tons of coal. 
That is----
    Chairman Smith. I have never heard it put that way. That is 
a very descriptive and very persuasive answer. I thank you for 
that. Dr. Sauthoff, going back to our pronunciation, we may 
have to split the difference between ITER and ITER, because we 
checked the dictionary, and the correct pronunciation is in 
between, as it ITER, I-T. So ITER, or ITER.
    Mr. Sauthoff. It depends whether you are going classical, 
church, or colloquial.
    Chairman Smith. Yes, I was always in the colloquial, and--
--
    Mr. Sauthoff. Yes.
    Chairman Smith. --that is why we got the ITER.
    Mr. Sauthoff. But do you do you veni, vidi, vici or veni, 
vidi, vici?
    Chairman Smith. Veni, vidi, vici, though, doesn't involve 
the I. By the way--from Caesar. But anyway, enough digression, 
I guess. If you want to talk about the potential, that would be 
great.
    Mr. Sauthoff. Okay. The potential is indeed quite great. 
The amount of energy that you get out of a nuclear reaction is 
more than a million times that of what you get out of a 
chemical reaction. And so, per pound of fuel, you get more than 
a million times out in either fission or fusion than you get 
out of chemistry.
    And what we have is a system which will allow us to address 
the risk of a fusion system, big risk of the plasma, but we 
only know how to do it on a big scale. It will be a central 
station plant----
    Chairman Smith. Right.
    Mr. Sauthoff. --so we won't have addressed portable 
electricity and the like, and that is going to take storage. We 
haven't yet figured out how to make the Mr. Fusion machine that 
Professor Emmett Brown put on the top of his DeLorean in Back 
to the Future, and we won't know how to make that power pack 
that----
    Chairman Smith. Yeah.
    Mr. Sauthoff. --Tony Stark had in Iron Man. But we do know 
how to make the arc reactor that is in the bottom of the Stark 
Tower in Iron Man 2.
    Chairman Smith. Okay. These are great answers. Let me ask a 
second question of the same three individuals. We will go in 
reverse order. And that is, what are the impacts of the 
proposed cuts, either on the mission, or on our international 
partners? Dr. Sauthoff?
    Mr. Sauthoff. Well, we are totally dependent on the other 
partners, and they are dependent on us. And what we have to do 
is to find a way where we work together such that all of us 
deliver all of our parts. And what we have to do there is to 
build up both a trust and a way to work together. And, as Dr. 
Iotti will--or Iotti, okay--will perhaps talk about, we have 
underway various approaches to achieving that interactivity, 
and that integration. And what we really need is to have an 
integrated team with strong leadership, and effective project 
systems that allows us to cooperate, and to achieve our mutual 
goals.
    Chairman Smith. Okay. Thank you. Dr. Iotti, the impact of 
the cuts? And I am afraid you are going to have to be the last 
one to answer, because of the time limitation.
    Mr. Iotti. There is--as Ned said, we have to work together. 
The moment that the other partner sees the U.S. is possibly 
wavering because of the budget cuts, it shows--it is much more 
difficult for us to influence the other ones, and working 
together. That is the bottom line. So we need to deliver just 
as much as we expect the other part to delivery. Budget cut can 
influence our ability to do.
    Chairman Smith. Okay. Thank you all. Thank you, Madam 
Chair.
    Chairwoman Lummis. Thank you, Mr. Chairman. The Chair now 
recognizes the gentlewoman from California, Ms. Lofgren.
    Ms. Lofgren. Well, thank you very much. I was excited by 
the title of this hearing, ``Fusion: The World's Most Complex 
Energy Project'', and--but all we are talking about is ITER. 
And I learned, when I first was elected to Congress, that the 
competition and disagreement between scientists about whether 
you want to do inertial confinement fusion, or magnetic fusion, 
it is, like, almost a religious dispute, and people have very 
strong views.
    But one question I have is how we might--or are we 
utilizing the information that we are obtaining out of the 
important work that is being done here in the United States, 
both at MIT, and at Lawrence Livermore that was mentioned 
earlier. How is that being integrated into the design of the 
science of this project, if at all? Anybody who could----
    Mr. Sauthoff. Okay, let me start. First of all, the design 
of ITER has evolved to adapt to the best practices and best 
configurations known from the existing research, and the U.S., 
among others, has contributed a lot to that. We have adapted 
the ITER configuration recently by adding what are called in--
vessel coils to address things that have been found on U.S. and 
other devices. We also have come up with ways of addressing how 
to increase confinement, and how to minimize the effects of 
instability.
    And so these features have been put into the ITER design, 
such that the basic ITER has the systems in place, based on our 
knowledge to date, and there is a flexibility in all the 
peripheral systems to improve how you fuel it, how you heat it, 
and how you change the profiles. And so both past research has 
contributed, and future research will contribute not only to 
the peripheral systems, but how we operate ITER.
    Ms. Lofgren. I worry--I support funding for this project, I 
will just say that up front, but I worry about completion, 
given the terrible economic conditions in Europe, and whether 
people who have made commitments in the end are going to be 
able to follow through on those commitments. And I am also 
mindful that when you have a big construction project like 
this, by the time you finish, you know, the technology has 
moved forward, and it is dated. I mean, for example, NIF, by 
the time it was done, they would now have a facility probably a 
third the size. I mean, the lasers would be so different. Not 
that it isn't a useable facility, but I am sure the same will 
be true of ITER.
    And so I guess--here is a question, looking at what--and I 
hope we--Madam Chair, we might be able to have a hearing on 
some of the other projects in the fusion arena, because it is 
very exciting, what is going on at Livermore. I just got a 
briefing yesterday from their scientific team, and with their 
high step efforts, I mean, they are generating alpha particles 
in a very interesting way.
    You know, they are--I believe they have created fusion, 
although not ignition. And we don't know, it is a science 
experiment, whether they will. But let us just say what if they 
actually hit their ignition target before ITER is completed. 
Would that have an impact on ITER's development? Because they 
are making great progress in stability issues and the like. 
Would--how would that information be integrated into this 
project?
    Mr. Sauthoff. Well, if I might be so bold as to start, I 
think, first of all, it would be a great accomplishment, and it 
will be a great accomplishment when NIF achieves ignition, and 
I believe that that will raise the recognition of the potential 
for fusion. And I personally believe that we should succeed in 
fusion in any way we can----
    Ms. Lofgren. I do as well.
    Mr. Sauthoff. --and I also believe we should succeed in 
multiple ways. Because, in that redundancy, we get reliability, 
and we will be able to optimize the systems. And, quite 
frankly, I hope that inertial confinement succeeds, magnetic 
confinement succeeds, and some of these alternate concepts 
succeed.
    You know, if we had set out to say we were only going to 
build one sort of a car, you know, we wouldn't have the 
variety----
    Ms. Lofgren. No, I absolutely agree, but the question is 
can you incorporate--I mean they have learned a lot on material 
science----
    Mr. Sauthoff. Yes.
    Ms. Lofgren. --moving forward. That, I believe, would be 
instructive and useful for this alternate approach----
    Mr. Sauthoff. Right.
    Ms. Lofgren. --and I agree. Once we get ignition, all that 
is left is engineering. And so, you know, that is a big 
challenge. But once we clear the science, I have a high level 
of confidence on implementation.
    Mr. Sauthoff. Yes. I believe that there are areas that can 
be synergistic, and materials are among them. The systems are 
somewhat similar, but they are also quite different, and that 
means that we have multiple paths to success in fusion, and so 
we ought to celebrate the differences as well as we celebrate 
the similarities.
    Ms. Lofgren. Thank you.
    Chairwoman Lummis. And the gentlewoman's time has expired. 
I now recognize the gentleman from Kentucky, Mr. Massie.
    Mr. Massie. Ms. Lofgren asked most of my questions, and 
better than I could have, but I have the same sort of interest 
in this. And some of these research efforts that are global can 
almost be described as the analogy to 1,000 monkeys typing on 
keyboards, that eventually they will produce the works of 
Shakespeare, but this is not one of them. We have only a few 
bets to place on fusion, because the projects--the scale of the 
projects doesn't lend itself to having a lot of people working 
on different approaches. So I think it is very important, when 
we place our bets, what we place them on.
    Dr. Sauthoff, you said that first plasma was an important 
milestone, or at least that is what it sounds like. What is the 
next milestone after that? And then, Dr. Iotti, in the event of 
100 percent success of this project, what will this experiment 
produce? But Dr. Sauthoff, please.
    Mr. Sauthoff. Okay. So the first event is a big integrated 
systems test that results in a plasma. We call that first 
plasma. That means the core tokamak is working.
    Mr. Massie. Is that novel? Has that been achieved before?
    Mr. Sauthoff. There has never been--it has never been 
achieved at this scale. You know, what we will be doing is to 
build a system that has more stored energy, and higher forces, 
and the like, than anywhere else. What we have to do after that 
is then build on top of the basic tokamak. We have to add the 
heating system, so that it gets up to thermonuclear 
temperatures. We have to add the instrumentation, so that we 
can study what is going on. We have--and we have to continue to 
optimize.
    One of the key things is we have to start a tritium system, 
because the fuel is deuterium and tritium, and that is a system 
which is very complex, state of the art, beyond the current 
state of the art. It is not just like what you do in the 
weapons system. What you have to do is do this fast enough 
where you can separate different isotopes of hydrogen to 
separate out the deuterium, and the tritium, and the protium in 
time that you can cycle it back into the tokamak.
    So this is a real development. We are doing our part at 
Savannah River. We are doing the separation. That then goes to 
Europe, that does the isotope separation. We are doing the 
exhaust processing, get hydrogen and separate it from other 
things. Europe is doing the isotope separation, and then it 
goes to China and Korea for injection.
    Mr. Massie. Dr. Iotti, the ultimate outcome from this giant 
experiment will be what?
    Mr. Iotti. Well----
    Mr. Massie. When I--I got excited when I saw the----
    Mr. Iotti. Two things----
    Mr. Massie. --electrical substation. I thought, wow, they 
are going to send power out. But then I realized that is the 
power coming in----
    Mr. Iotti. That is the power coming in----
    Mr. Massie. --to the magnets.
    Mr. Iotti. --right. It----
    Mr. Massie. Okay.
    Mr. Iotti. The moment we can say that is the power out----
    Mr. Massie. Yeah.
    Mr. Iotti. --we will have been successful. Well, first of 
all, this experiment is going to allow us to enter the regime 
where the plasma itself heat it. We have never been there for 
any substantial period of time. So that is the science, if you 
will. After you conquer the science, then it becomes an 
engineering problem.
    So this device by itself will not enable us to immediately 
go to a demo plant. We can design a demo plant, but we will 
need information on materials. We will need other information 
that comes from other facilities that are being built around 
the world, by the way. But the fundamental output of ITER will 
be the knowledge of the science, and some of the engineering 
that is necessary to go to the next step, which will be the--
not just the design, but the actual construction of a 
demonstration facility, which will produce power that will be 
put in the grid.
    Mr. Massie. But not this facility?
    Mr. Iotti. Not--this facility will not put power in the 
grid----
    Mr. Massie. Got you.
    Mr. Iotti. --no.
    Mr. Massie. I want to use my remaining time to ask Dr. 
Rusco a few questions--or one question. I will leave it open 
ended. The design of the management of this project presents, I 
would imagine, some unique obstacles, and increases the 
overhead of completing these goals. What are some of those 
unique problems inherent in the management of this project?
    Dr. Rusco. Our review mostly focused on the U.S. project, 
but the management assessment which we were able to review laid 
out some really important challenges. And among the key ones 
were a top heavy management culture, and structure, and many 
managers from different----
    Mr. Massie. Languages?
    Dr. Rusco. --and cultures. I don't think that the language 
and, you know, cultural aspects are as much of an issue as have 
too many managers, and too many layers of decision-making. 
Decision-making was not pushed down to the lowest reasonable 
level, and so it is a top heavy organization. Another is that 
they have an absence of a systems engineering culture, and they 
need that.
    This is a huge, complex system, and it is a huge project. 
And another one is that they are lacking in things like a 
nuclear safety culture. And these are big changes, big cultural 
changes in an organization that is made up of people from all 
the member countries. And I think that that is just inherently 
a large challenge.
    Mr. Massie. If--can I have just a little more time?
    Mr. Iotti. Could I add one more, if I may, because I think 
it responds to his question? There is an issue--imagine that 
you have a project, and you are the owner of the project. 
Normally the owner has the funds, and tell its contractors what 
to do. Not so in ITER. It is the reverse. The domestic agencies 
have the fund. They are the provider of the equipment to the 
owner, the ITER organization, which has no funds. So that is a 
big problem. It is not unsolvable.
    And, as a matter of fact, one of the reaction to the 
recommendation of the management assessment said, improve the 
IO/DA interaction. It is a key of the group formed by the 
council, which is studying the problem, and is making good 
progress. That is something that is unique to ITER.
    Mr. Massie. That occurred to me when Dr. Rusco talked about 
the problem with the decision process. Well, so many of the 
decisions have already been made. You know who you are going to 
buy it from, and what they are going to build, so why would it 
matter if you made a decision to do something else? You don't 
have the money to change the plan, seems like. I yield back. My 
time has expired.
    Chairwoman Lummis. I thank the gentleman, and recognize the 
gentlelady from Massachusetts, Ms. Clark.
    Ms. Clark. Thank you, Chairman Lummis. I am very excited to 
be here, and very excited about the potential of fusion energy. 
And, with all apologies to George Gershwin, I say ITER, you say 
ITER, but let us not call the whole thing off. And I do have 
some particular questions. I have been very fortunate to be 
able to go out to the fusion lab at MIT and see the C-Mod 
there.
    And I have some questions for Dr. Dehmer, because you have 
oversight of sort of what I see as two parallel management 
structures, one having to do with the Fusion Energy Advisory 
Committee, and one having to do with the High Energy Physics 
Advisory Board, and the P-5. And there seem to be similarities 
on these two, but some key differences, and I wondered if you 
could help me think through some of the differences.
    In the P-5 panel, there is a feeling that there has been a 
better opportunity to incorporate community input, and there 
has also been some differences, in that membership in the 
strategic planning panel on the fusion side has barred 
membership from major U.S. facilities to avoid conflicts of 
interest, but this has not been the case in the P-5 panel. And 
so that the feedback that I have been getting is that people 
feel the P-5 panel has been able to work through solutions in a 
better way. And I wondered if you could comment on that, and 
the difference in structures, and how we might reconcile these 
two parallel structures?
    Dr. Dehmer. Yes. Let me talk about that. There are three 
committees that I would like to talk about. One is the P-5 
HEPAP, one is the FESAC, and the third is the Basic Energy 
Sciences Advisory Committee, which went through a similar 
exercise about a year ago.
    In prior committees under FESAC, there had been some 
concern expressed to me verbally, that the committee didn't 
appreciate conflict of interest as well as it should. So when 
we started this most recent study, I admonished them to be 
very, very careful about conflict of interest. Now, you can do 
that in a number of ways. You can have your sub-panel composed 
of people who have no obvious conflicts of interest, and that 
is what the chair of FESAC did. That was Mark Koepke. And that 
is also what BESAC did.
    The BESAC and the FESAC committees were very, very similar. 
Neither one of the sub-panels had members from institutions 
that were directly affected. However, in both cases, there were 
very open community activities in which communities put white 
papers, and other kinds of documents, into the sub-panel, and 
had an opportunity to formally brief the sub-panel. That worked 
very well for BESAC, and FESAC Mark Koepke chose to adopt that 
for FESAC as well.
    There is no intent whatsoever to inhibit input from these 
major facilities. And, in fact, if you look at the FESAC 
webpage for this activity, it is full of calls to the 
communities to provide input. And, in fact, they met just this 
week. Their meeting concluded yesterday, and they heard from 
all of the major facilities, national and international, that 
briefed the Subcommittee, and put in white papers for the 
Subcommittee. This worked very well for BESAC. I think Mark 
Koepke decided to adopt this for FESAC.
    Ms. Clark. Great. Thank you very much. I yield back my 
time.
    Chairwoman Lummis. I thank the gentlelady, and yield to the 
gentleman from Illinois, Mr. Hultgren.
    Mr. Hultgren. Thank you, Madam Chair, and thank you to all 
of our witnesses. We most definitely have a very distinguished 
panel here today. I think this hearing is very important as we 
continue to assess ongoing viability of the ITER program. I 
think everyone on this Committee knows about my interest in our 
national labs, and I also recognize the need for international 
collaboration in some of these large science projects. Because 
of the sheer size of such of--as this, there is no way for the 
United States just to go it alone.
    And it is not just a cost issue, it comes down to portfolio 
management. Doing this alone would require nearly all of the 
fusion budget, plus increases. We do have to ensure a balance 
of projects, because we don't always know where the next 
discovery or game changer will come from.
    Dr. Dehmer, first of all, I want to thank you for the 
incredible work that you have done at the Office of Science. As 
I talk to my scientist back in Illinois, one word that keeps 
coming back to me is tough. And I don't think that is a bad 
thing, neither do they. They know that they have to have their 
plans well thought out and put together before they bring them 
to your desk. And I have faith that you have been a responsible 
steward of the taxpayers' dollars, and I thank you for that.
    My first question comes down to our standing in the 
international community for these types of international 
programs. Our partners obviously get frustrated with the United 
States because of our yearly budgets, or sometimes monthly 
budgets, compared to the more long term planning in other 
nations. I wondered if you could talk briefly about if the 
United States pulls out of a program of this size, how do you 
believe the international community will react when we want to 
join in a host of other--or host other programs?
    I wondered if you could also discuss the importance of 
domestic research and facilities programs in relation to ITER 
and other international partnerships. One last thing, also, how 
are these programs interrelated, and what would pitting one 
against the other mean for the ability to continue future work 
in fusion energy?
    Dr. Dehmer. Let me answer the the Office of Science. And we 
heard today a lot about aggressively accelerating funding for 
fusion, but we simply can't do that, because there are so many 
other projects.
    We have tried to assess how withdrawal from ITER, and we 
aren't proposing to do that, might affect other activities, 
both scientific and other, and we simply don't know the answer 
to that. I have to say that I have not heard from any part of 
the scientific community that they are nervous about the United 
States position on ITER. And you well know, with Fermilab in 
your district, that international projects are an increasingly 
important component of the science portfolio.
    And you well know from the P-5 HEPAP report that encouraged 
Fermilab to reach out and internationalize the long baseline 
neutrino facility, and we are going forward in doing that. And 
that will be one of the first examples of a major international 
project on U.S. soil.
    Mr. Hultgren. I hope we can do it well. And, again, with 
our challenges budgeting here, where other nations, I think, 
have done a better job of long term planning, as far as science 
is concerned, I do think it is important for us to show that we 
can follow through if we have a hope of having future projects 
that we can work together on.
    Dr. Iotti, I wonder--if I understand, that one of the key 
management challenges with ITER is the unanimity requirement 
for cost of schedule decisions, which allows one member to 
stall the decision-making process. Is there agreement on the 
council that this is a problem, and how do you plan to address 
this issue so that the organization can function?
    Mr. Iotti. Yes, the council has recognized the issues. They 
formed a working group that is called, surprisingly, IODA 
Interaction Group, and the group is making very good progress. 
They have defined a process whereby decisions are presented to 
a group which is chaired by a senior person in the ITER 
organization, but includes all of the most senior persons from 
each of the domestic agencies, and has formed kind of an 
executive group.
    These decisions--the options for the various decisions, 
with the pros and cons, are presented to the group, and the 
decision then is made jointly by the ITER organization and the 
domestic agencies, and presented to the Director General, who 
can then still, if necessary. But generally they will come to 
an agreement. It will not solve all problems, but it will 
considerably ameliorate the issue.
    Mr. Hultgren. Real quickly in my last few seconds, Dr. 
Dehmer, if I can go back, what lessons has the United States 
learned about creating an international decision-making body 
for other projects domestically? As you mentioned, I am 
thinking about the P-5, the proposal of the international 
facility. But I think we have these questions about anything 
that we might ever want to host or join. While I do think ITER 
management problems can be rectified, is the current management 
a case study for how not to manage a program like this in the 
future?
    Dr. Dehmer. I think we have examples of international 
projects that have worked, the Large Hadron Collider----
    Mr. Hultgren. Yes.
    Dr. Dehmer. --and we have had examples, and ITER is one of 
them, where we would modify that agreement, if we had to do it 
all over----
    Mr. Hultgren. So lessons have been learned with----
    Dr. Dehmer. Yes, indeed.
    Mr. Hultgren. Well, again, thank you so much. Madam Chair, 
thank you so much. Appreciate your generosity.
    Chairwoman Lummis. Those were sweeping questions, and very 
succinct answers. Very impressive line of questioning. I want 
to recognize now the gentleman from Texas, Mr. Veasey.
    Mr. Veasey. Thank you, Madam Chair. I have a question for 
Dr. Sauthoff. We have three major magnetic fusion research 
facilities here in the U.S., at MIT, Princeton, and General 
Atomics in San Diego. And what I was curious about was if you 
would be able to explain how the smaller scale experimental 
facilities are contributing to ITER?
    Mr. Sauthoff. Okay. Well, the smaller scale facilities in 
the U.S. are world class, even though they are not at ITER 
scale. There is not an ITER scale facility in the world. But 
the U.S. facilities are world class. They have produced results 
which have enabled ITER to optimize its design. I mentioned in-
vessel coils, but there are other areas where that has been 
done. They have also identified ways where ITER can be operated 
more effectively, better modes of confinement, different modes 
of stability, better ways of protecting against loss of control 
and the like.
    Furthermore, they provide a training base for--let us call 
it the workforce. We also want to establish a reputation where 
the U.S. has the stature to really be effective in 
international research, and be able to propose winning 
proposals, to win run time, to be members of international 
teams that do the research. And so, quite frankly, we have the 
ability to study the physics, which can then be extended to the 
ITER scale, based on understanding the basic physics, and then 
extrapolating it. And that extrapolation uses supercomputer 
simulations.
    So, really, what I see is devices such as today's tokamaks 
giving better understanding, giving rise to better physics 
models that are then embodied in supercomputer codes, which 
allow us to then extrapolate to the ITER scale.
    Mr. Veasey. Would there--were you finished? I am sorry. 
Would there still be a strong justification for continuing to 
support the current set of U.S. based magnetic fusion 
facilities if there were no burning plasma experiment like ITER 
in the works?
    Mr. Sauthoff. Well, first of all, I hope that situation 
doesn't arise. However, you know, if there were no burning 
plasma facility in the world, there would be a gaping hole, 
because one of the greatest risks has to do with not 
understanding the dynamics of a burning plasma, or the effects 
of the energetic particles, or the size scaling.
    However, there would be many things to learn if there were 
not a burning plasma facility. However, the E in fusion energy 
would not be fulfilled. What we would be studying is plasma 
physics. And so what we really need to do is have a balance 
between plasma physics and putting the E into fusion energy.
    Mr. Veasey. Interesting. On the facilities again, I mean, 
are we sufficiently supporting these facilities, and the 
related research programs at universities throughout the 
country to ensure the success of ITER?
    Mr. Sauthoff. Well, I will transfer it to Dr. Dehmer in a 
moment. Of course it would be better if there were more run 
time on these facilities. They are starved for run time. A very 
small fraction of the available time is used for operation. But 
it is a question of balance, and so that is where Dr. Dehmer 
comes in.
    Mr. Veasey. Dr. Dehmer?
    Dr. Dehmer. We do try to balance the amount of run time, 
and we have deliberately been pushing to increase the run time, 
particularly on NSTX, which is just finishing its upgrade at 
Princeton Plasma Physics Laboratory, and we are trying to have 
a very, very good run the first year after that upgrade is 
finished.
    Mr. Veasey. Okay. Thank you. Thank you, Madam Chair.
    Chairwoman Lummis. I thank the gentleman from Texas. 
Without objection, the Chair recognizes Mr. Rohrabacher for 
five minutes for his questions. Those bells were just the call 
for votes, but this first vote is a 15 minute vote, thereby 
allowing Mr. Rohrabacher his complete use of time, so----
    Mr. Rohrabacher. Okay.
    Chairwoman Lummis. We are going to complete our hearing, 
and still make votes. Perfect.
    Mr. Rohrabacher. All right.
    Chairwoman Lummis. Mr. Rohrabacher?
    Mr. Rohrabacher. Thank you very much, Madam Chairman. Sorry 
I was a bit in and out. As we speak, that sound in Israel is 
the sound of a rocket coming in and blowing innocent civilians 
up. We were just briefed by the ambassador, and by an Israeli 
military official.
    About fusion, as compared to other alternatives--and I am 
sorry I missed--I will come back and read your testimony as the 
hearings go on, but I have been here during this whole 
decision-making process for the last 26 years, and it seems to 
me that already what we have got again is a description of 
management problems with a multi-billion dollar program, and 
this is very serious.
    And--especially if we have very limited resources now in 
this country. We are borrowing money from China in order to, 
you know, in order to do anything, in order to actually meet 
our own budget. So these management problems need to be 
overcome, I just would like to put that one the record, or we 
need to, say, have a serious look at whether we will continue 
pouring money into the project.
    Madam Chairman, I would suggest that over these years there 
have been many spin-offs from the Fusion Energy Research 
Program that are very valuable. And I know that, for example, 
the railgun that has just been disclosed by our military would 
not have been possible without the material and development of 
the metals, and the things that were necessary for the fusion 
project to move forward. And it actually permitted us to 
develop a system that I think will enable us to build a defense 
system, so that if those alarms go off, we will actually have a 
missile defense system that will protect our people, and save 
thousands of lives.
    So, in that degree, fusion energy research has been a 
benefit to the people of the United States. Perhaps, however, 
we should be looking now at whether or not the money we are 
going to be putting in to fusion, as compared to the money that 
would be putting in to small modular nuclear reactors that are 
fission reactors, we know we are going to get a benefit from 
that.
    We know if we put several billion dollars into that, we 
will have a new system of fission reactors that will provide 
safe energy for our people, and we are assured of that. Can we 
be assured that the billions of dollars that we will need to 
pump in to the--to finish this project, this fusion project, 
can we be certain that it will result in an energy system for 
our country? We know it will if we put it into fusion. Do we 
know it--fission. Do we know it will happen if we put it into 
fusion? Whoever on the panel wants to go. Maybe each one of you 
could say, yes, we know, or no, we don't know. Maybe start at 
this end, and just run them down. Go ahead.
    Mr. Sauthoff. Okay, I will start. No, we don't--do not have 
absolute certainty. But what I think we have to do is act 
somewhat as an investor. We have to look at what would be the 
return on investment if it were to succeed, and then----
    Mr. Rohrabacher. Yeah.
    Mr. Sauthoff. --consider what are the probabilities----
    Mr. Rohrabacher. Versus risk, and----
    Mr. Sauthoff. Yeah. It is--I think we ought to treat it as 
a portfolio management problem.
    Mr. Rohrabacher. Okay.
    Mr. Iotti. I agree with----
    Mr. Rohrabacher. Okay. So the idea is that no, we do not--
--
    Mr. Iotti. We do not know for certain.
    Mr. Rohrabacher. --we do not know for certain, but we feel 
there is a probability?
    Mr. Iotti. Very high probability.
    Mr. Rohrabacher. Okay.
    Dr. Dehmer. Exactly the same. Long term, high risk project.
    Mr. Rohrabacher. All right. But we do know that there is an 
alternative, in terms of development of nuclear energy for the 
use of our people that is far less risky, in terms of--we know 
we can produce fission reactors that are small modular 
reactors.
    Mr. Sauthoff. Yeah.
    Mr. Rohrabacher. I mean, I asked that of other witnesses, 
and they say absolutely we can, if we had the resources. So, 
for the same amount of money, we could have a certain return, 
versus--and, due to dealing with fusion, we don't have a 
certain return. However, we do have a probability. One last 
note our GAO, how does that all add up?
    Dr. Rusco. I can't add anything to what they said. It is a 
high risk, potentially high reward project.
    Mr. Rohrabacher. All right. Thank you very much.
    Chairwoman Lummis. We have had a fascinating line of 
questions and answers today. We all thank you for your valuable 
testimony, and I thank the Members for their valuable 
questions, and thoughtful questions. Members of the Committee 
will have additional questions for you, and if they come to 
you, we will ask you to respond in writing. The record will 
remain open for two weeks for additional comments and written 
questions for Members.
    Members, we have on the floor eight minutes remaining on a 
Motion to Recommit on H.R. 4718, so plenty of time. And, again, 
with gratitude towards our panel, this hearing is adjourned. 
The witnesses are excused. Thank you.
    [Whereupon, at 10:30 a.m., the Subcommittee was adjourned.]
   
   
   
   
   
   
                              Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                   Answers to Post-Hearing Questions


                              Appendix II

                              ----------                              


                   Additional Material for the Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]
</pre></body></html>
